NO.

IN THE
SUPREM COURT OF THE UNITED STATES

Akube Wuromoni Ndoromo -PETIONER
(Your Name)
VS.
Merrick B. Garland and Charming Phillips. -RESPONDENTS
PROOF OF SERVICE

date

I. Akube Wuromoni Ndoromo. do swear or declare that on this
. f) 6________ , 2021, as required by Supreme Court Rule 29 I have served the
0 ^

enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

MERRIK B. GARLAND AND CHANNING PHILLIPS, RESPONDENTS
950 Pennsylvania Avenue N.W.
Washington D.C. 20530

I declare under penalty of perjury that the foregoing is true and correct. Executed on, September 06,
2021

4a

jm

M

i

(Signature)

o

